No.20-7009

In The
Supreme Court of the United States
CERTIFICATE OF SERVICE
I hereby certify that on this the 21st day of April,
2021, I Mark R. A. Reed filed the foregoing Petition
for Rehearing/Reconsideration with the Clerk of the
Court for the United States Supreme Court. I
further certify that on this day, I sent to this Court
one copy and one copy to the Attorney General of
the State of Georgia via U.S. Mail and upon:
Supreme Court of the United States
Office of the Clerk(Michael Duggan)
Washington, D. C. 20543-0001
Office of Law
40 Capital Square, S.W.
Atlanta, Georgia 30334
Counsel for Respondents

(Sig,nature.)
Georgia State Prison
300 1st Avenue, South
Reidsville, Ga 30453

